<html>
<title> - NOMINATION OF BETH F. COBERT</title>
<body><pre>[Senate Hearing 113-333]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-333

                      NOMINATION OF BETH F. COBERT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

   NOMINATION OF BETH F. COBERT TO BE DEPUTY DIRECTOR FOR MANAGEMENT 
                    OFFICE OF MANAGEMENT AND BUDGET

                               __________

                            OCTOBER 2, 2013

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PRINTING OFFICE 

85-503 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
       Lawrence B. Novey, Chief Counsel for Governmental Affairs
         Troy H. Cribb, Chief Counsel for Governmental Affairs
            Deirdre G. Armstrong, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
        Joelle Cannon, Budget Director, Office of Senator Coburn
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk






















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     4
    Senator Johnson..............................................    12
    Senator Chiesa...............................................    16
    Senator Ayotte...............................................    22
Prepared statements:
    Senator Carper...............................................    27

                               WITNESSES
                       Wednesday, October 2, 2013

Beth F. Cobert, to be Deputy Director for Management, Office of 
  Management and Budget
    Testimony....................................................     5
    Prepared statement...........................................    29
    Biographical and financial information.......................    31
    Letter from the Office of Government Ethics..................    47
    Responses to pre-hearing questions...........................    51

 
                             NOMINATION OF
                             BETH F. COBERT

                              ----------                              


                       WEDNESDAY, OCTOBER 2, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Coburn, Johnson, Ayotte and 
Chiesa.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The Committee will come to order.
    Good morning, everybody.
    Ms. Cobert, great to see you and your family. Your mom, 
your husband, daughter, another friend right behind you. It is 
great to see you.
    We are here to consider your nomination to be Deputy 
Director for Management at the Office of Management and Budget 
(OMB).
    This Committee comes together at an unfortunate time for 
the American people, for Congress, and for our democratic 
process. Much of our government, as you know, is officially 
closed for business and hundreds of thousands of public 
servants have been forced to stay home. It is not fair to them 
also not fair to the people who we are here to represent, who 
pay their taxes and will not get the government services they 
expect and deserve.
    I think this is an embarrassing avoidable failure that 
highlights the dysfunction that has dominated Congress for the 
past several years. But I am happy to say it does not 
characterize this Committee where we have a great relationship 
and work, I think, really well together.
    Our current method of stopgap, crisis governing is no way 
to run a government or a business let alone a Nation of our 
size and stature. This type of crisis governing with last-
minute stopgap funding measures and government shutdowns is 
actually the most inefficient, expensive way to govern. We need 
to do better and we can if we begin working together once again 
stopping some of these needless acts of political 
brinksmanship.
    Much of the work of our congressional Committees is 
suspended at this time. I believe it is essential and Dr. 
Coburn believes it is essential for this Committee, though, to 
meet today to consider Ms. Cobert's nomination, and we will 
have another hearing immediately after this one for the two 
other nominees for the Postal Regulatory Commission (PRC).
    The Deputy Director of Management, if you ask most people 
in this country how important is that, they would not have any 
clue, because most of them are not familiar with this position.
    But to Dr. Coburn and I, to our staffs, to the Members of 
this Committee, it is a really important job. It is really 
important for not just OMB and it is not just important for the 
Administration. It is really important for our country. It is 
important for us because we look to create, I talked with you 
earlier when we met, about leverage and trying to leverage.
    Dr. Coburn and I, even Senator Johnson and Senator Chiesa 
and others, we are trying to figure how do we get better 
results for less money in everything we do. And, you or the 
person who holds your position in the past and in the future, 
you are just a key person in making that happen.
    But the Deputy Director of Management is one of the top 
three leaders at the Office of Management and Budget. In the 
midst of this very partisan time, one thing that Republicans 
and Democrats agree on is that we need to make every effort to 
find savings through better management of our government.
    I said it before but something that is important and bears 
repeating often is that to achieve a long-term solution to our 
fiscal problems we need to do three things. We need entitlement 
reform that saves money, saves these programs for our kids, for 
our grandchildren, for your kids and for their children; and 
also does not savage old people or poor people.
    We need tax reform in my view that raises some money for 
deficit reduction; and we need to look at everything we do and 
ask this question: how do we get a better result for less money 
in everything that we do.
    In the years that I have served on this Committee, many of 
them with Dr. Coburn, a couple of them with Senator Johnson and 
only a couple of months with Senator Chiesa and we have one of 
your constituents out there, 90 years old, is that right?
    She came all the way down on the train today and it is a 
thrill to see her and her daughter will be introducing her in 
just a minute.
    But in the years that I have served here with Dr. Coburn 
and others and with presidents of both parties, we have worked 
to try to find ways to better manage our government programs 
and our government and we put our noses to the grindstone. I 
think we have achieved some good results.
    Maybe one of the best results is what we have done with 
respect to improper payments. Improper payments are payments 
that are, as we know, not necessarily fraud but just a mistake, 
paying the wrong beneficiary or the wrong contractor or paying 
them too much or may be too little.
    More effective management and oversight has led to enormous 
savings, enormous savings, by preventing these errors by 
agencies across the government. In fact, improper payments have 
been on a downward trend dropping from $121 billion in fiscal 
year 2010 to $108 billion in fiscal year 2012. We are looking 
forward to see how we did in 2013. We should know that before 
long.
    But while a lot more work needs to be done to identify, 
recover, and prevent improper payments, it is clear that we are 
making progress and we need to keep it up.
    We have helped to improve government management in other 
ways as well. For example, over several years our Committee has 
given focused attention to the challenges faced by the 
Department of Homeland Security (DHS) in integrating its 
separate management systems into one department. The Government 
Accountability Office (GAO) recently recognized the 
department's substantial progress in this area.
    Likewise, our Committee, GAO, and a number of Federal 
agencies have all worked to focus attention on wasteful 
spending that can occur in interagency contracting which occurs 
when one agency spends money through a contract negotiated and 
managed by another agency. I was pleased to learn earlier this 
year the GAO removed interagency contracting from its high risk 
list of troubled government operations.
    Our Committee has much more important work ahead to address 
other serious, often long-standing management problems. The 
management of Federal real property is added example. One of 
the first things that Tom Coburn and I did was visit a post 
office, a big old abandoned post office building in, I think it 
was in Chicago, to figure out why we have buildings like that 
all over America where we spend a lot of money maintaining 
them, and securing them, providing for the utilities but nobody 
is there. We are not really using it or we are underutilizing 
them.
    But what there is still going on is that there is too much, 
still too much duplication, something that Tom focused on a 
whole lot, and wasteful spending in Federal information 
technology (IT) projects.
    We just need to tap into billions of dollars in potential 
savings through strategic sourcing. We had a hearing here on 
that just about a month or so ago with our friends from the 
General Services Administration (GSA), and that is one of the 
ways where we can leverage the government's buying power to get 
discounted prices when the government buys things.
    As my dad would say, that is just common sense. And of 
course, we face a major management challenge in recruiting, 
training, and retaining a Federal workforce for the future. The 
list goes on and on.
    I just want to say just a quick word. We have a lot of 
Federal employees who did not come to work today, not because 
they did not want to, not because they did not need to, because 
we told them not to; and I would just say to folks who serve, 
whose life work is to serve the people of this country, we 
appreciate them, we appreciate the hard work that they do and a 
lot of times they get a bad rap.
    I have heard my colleagues call them faceless bureaucrats, 
and I hate that when I hear that. These are people who have 
good hearts, are good servants, and they deserve our respect. 
We work hard. We expect them to work hard and give the 
taxpayers a day's work for a day's effort.
    But saving money is not the only reason to have good 
management. We deliver better service to the American people 
when we have good management. It is the case in every area of 
the government from border security to Social Security. 
Unfortunately, delivering quality services are the harder in 
this area of stopgap, crisis governing with agencies struggling 
to do the best work they can despite uncertainty about their 
budgets.
    So, I am eager to help move of this nomination forward, get 
a Deputy Director for Management. I think Dr. Coburn is eager 
to get you on the job and go to work with Sylvia and the gang 
and get us on the road to where we need to go in terms of our 
management and our budget, to help promote long-term management 
reforms. They are going to deliver better results and save some 
money for taxpayers.
    And with that, I will turn to Dr. Coburn and then I will 
introduce you and give you the oath so you can testify. Thank 
you.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, welcome. We are glad you are here. I 
would like to say, first, for the record, it takes a certain 
amount of courage and patriotism to give up a very well-paying 
job to come and do service for your country. It is not 
something you have to do. It is something you choose to do, and 
you have actually chosen one of the most difficult jobs in 
Washington because of the problems.
    So, I want to recognize publicly the sacrifice that you 
will be making should you be confirmed, and I believe you will 
be, both in terms of your family, your two children and your 
husband, but also the travel that will be involved and the 
terribly long hours that are associated with this job.
    I also very much appreciated our conversation yesterday. I 
think you have a great understanding of what the real problems 
are. The Office of Management and Budget is just that. It is an 
office of budget and management and too often it is about the 
budget and not the management.
    So, I welcome you here today, applaud your sacrifice and a 
willingness to do it. My hope would be we would have more 
experienced people from the private sector fulfill positions 
such as this one; and I look forward, following your 
confirmation, to work closely with you in terms of changing.
    I would just say it is not billions. It is hundreds of 
billions that the American people are not getting any value 
for, and it does not have anything to do with our employees. It 
has to do with Members of Congress and the fact that we are 
inappropriately not overseeing the areas where we can make a 
difference and I hope with your guidance at OMB, we can work 
together so that we can highlight for the American people where 
we are failing, not to recognize failure but to recognize 
problems so that we can change it.
    The next 20 years in front of this country are going to be 
very difficult in terms of our finances and it has to start 
with good management. And so therefore, I appreciate you being 
willing to sacrifice.
    Thank you.
    Chairman Carper. Thank you, Dr. Coburn.
    At this point in our hearings, we always ask our witnesses 
to rise and to take an oath; and if you could do that at this 
time, I would appreciate it. Raise your right hand. Do you 
swear the testimony you will give before this Committee will be 
the truth, the whole truth, and nothing but the truth so help 
you, God?
    Ms. Cobert. I do.
    Chairman Carper. Please be seated.
    Let me take just a moment just to share publicly just a 
one-pager on part of your background. Beth Cobert, senior 
partner at McKinsey and Company, where she has worked for 
nearly 30 years. She is the firm's global leader for functional 
capability building, responsible for fostering skills among 
over 9,000 consulting staff at the firm, 9,000. Ms. Cobert is 
also a global leader of McKinsey's marketing and sales practice 
and chairs the firm's pension fund.
    From 1980 to 1982 prior to working at McKinsey and Company, 
she worked as an analyst at Goldman Sachs. Ms. Cobert received 
her Bachelor of Arts from Princeton, her Master of Business 
Administration from Stanford Graduate School of Business; and 
as Dr. Coburn has said, we are grateful.
    Obviously, you do not have to do this job. For you to 
basically leave a great job with a great company and to take on 
this responsibility and for your family to be willing to share 
you with our country, for your mom and dad to have raised you 
and instilled the kinds of values in you that led you to this 
place today and to your husband for his willingness to be 
supportive and to encourage you in this way and your son who is 
here and your daughter who cannot be here, we are just grateful 
that they share their mom with all of us.
    With that, your whole statement will be made part of the 
record. Feel free to summarize as you wish and then we will ask 
you some questions.

   TESTIMONY OF BETH F. COBERT\1\ TO BE DEPUTY DIRECTOR FOR 
          MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Cobert. Thank you, Chairman Carper, Dr. Coburn, and 
Members of this Committee for welcoming me today. It is an 
honor to be considered by this Committee as President Obama's 
nominee for Deputy Director for Management of the Office of 
Management and Budget.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Cobert appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    I am very pleased that some of my family could join me 
today, including my husband Adam Coith, my son Peter Cioth, and 
my mother Shirley Cobert. My husband and children, including my 
daughter Talia, who could not join us today, have been 
exceptionally supportive over the years even when the demands 
of my job and community commitments meant time away from them. 
I greatly appreciate their support as I take on this new role.
    I would like to especially recognize my mother. She and my 
late father were role models to me of the importance of being 
engaged, involved citizens in giving back to the community.
    My mother is still an active volunteer at age 90, including 
continuing to be a stalwart in civic engagement efforts in 
adult education programs in Montclair, New Jersey, where I was 
raised.
    I want to thank President Obama for nominating me to this 
position, and I also want to thank Director Burwell and Deputy 
Director Deese for their support and confidence in me.
    Finally, I want to thank Members of the Committee and their 
staff for taking the time to meet with me. If I am confirmed, I 
look forward to continuing our conversations and strengthening 
the vital relationship between OMB and this Committee.
    If confirmed, I would hope to help advance the effort to 
improve government management and performance. I would focus on 
the four pillars the President has emphasized in his second 
term management agenda--effectiveness, efficiency, economy, and 
people.
    These pillars form the base of strong government 
performance. Improving how the Federal Government delivers 
services to the public, including through the enhanced use of 
new technologies, will increase our effectiveness. Eliminating 
waste and finding operational savings in programs, processes, 
and systems will build efficiency.
    Taking steps to ensure the government is enhancing economic 
growth, such as opening up government data to create new 
businesses and economic opportunities and the ongoing effort to 
speed up the Federal permitting process, will strengthen our 
economy; and importantly, focusing on how the government 
attracts, develops, retains, and optimizes a first-class 
Federal workforce will help us ensure that the best and 
brightest are serving in the Federal Government and enable us 
to compete successfully in a 21st-Century economy.
    I believe that these are the right pillars on which to 
focus our government's management efforts. Given the tremendous 
fiscal constraints our government is operating under, it is 
more important than ever that we carefully integrate management 
efforts into our budget processes and the delivery of 
government services. I believe the President's management 
agenda will ensure that taxpayer dollars are spent wisely and 
that we are maximizing the value of the services we deliver.
    If confirmed as Deputy Director for Management and also in 
my role as Chief Performance Officer, I would work with 
Congress and the dedicated staff at OMB and Federal agencies to 
drive this agenda forward on half of the American people.
    I recognize that the Administration, working with Congress, 
has already made great strides in the management area, steadily 
improving the effectiveness and efficiency of our government. 
And, I want to commend Steve VanRoekel, who currently serves as 
Acting Deputy Director for Management, for his outstanding 
work.
    As Chairman Carper noted, I come from the world of 
management consulting. I am currently a director and senior 
partner at McKinsey and Company where I have worked since 1984. 
I believe my experience and skills as a management consultant 
would serve me well in the position of OMB's Deputy Director 
for Management as well as the designated role of Chief 
Performance Officer.
    Over the last 29 years at McKinsey, I have worked with 
corporate, nonprofit, and government entities on key strategic, 
operational, and organizational issues. I have led major 
projects to generate performance improvements, to process 
streamlining, and enhanced customer service, improve deployment 
of technology, more effective marketing programs, and 
strengthened organizational effectiveness.
    I have also held leadership roles at McKinsey in people 
management, including recruiting, training, developing, and 
performance evaluation of staff. These represent the same areas 
of performance improvements that are at the heart of President 
Obama's second term management agenda.
    If confirmed, I will work to build on the Administration's 
successes and utilize my knowledge of private and public sector 
best practices to help make even further progress.
    Again, I want to thank the President for giving me this 
opportunity to serve and the Committee for considering my 
nomination. I look forward to answering any questions you may 
have.
    Chairman Carper. Well, thank you, thank you for that 
statement. I have three questions. In every confirmation 
hearing we have, I try to remember to ask these three 
questions. I will start with those.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Cobert. No.
    Chairman Carper. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Cobert. I do not.
    Chairman Carper. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Cobert. I do.
    Chairman Carper. Thank you.
    Ms. Cobert. You are welcome.
    Chairman Carper. As I noted in my opening statement, you 
have quite a distinguished career in the private sector. You 
are one of the senior leaders of one of the largest, most 
successful consulting firms I think in the country, maybe in 
the world.
    Tell us a little bit more about the roles you have played 
at McKinsey and how you will translate that background into the 
responsibilities that you will be assuming if you are confirmed 
as Deputy Director for Management.
    Ms. Cobert. Sure. I think that the experience that I have 
had at McKinsey and in working with my clients at McKinsey 
translate quite directly to the roles I would be playing as 
Deputy Director for Management, if confirmed.
    There are a number of specific topical areas where I have 
worked with clients of different sizes and in different 
industries to help make real improvements in performance. I 
have worked with clients on better deployment of technology, as 
I mentioned, trying to make the more standard parts of that 
technology more efficient and to use technology tools to enable 
them to deliver better customer service.
    I have worked with companies on procurement programs, 
trying to help them buy smarter, to buy what they needed at 
right prices, and to make sure they are buying the right 
things, what they need to deliver against their goals and not 
more.
    I have worked on a range of issues about strengthening 
performance management systems, something that I think is at 
the heart of the process of generating a mindset of continuous 
improvement, of using data and learning from that data to help 
make performance better and to build a mindset and a culture 
where the individuals doing their jobs everyday are thinking 
about how they can do their work better.
    So, there are a number of things in that arena in terms of 
working with my clients. I have worked with them on issues 
around customer service, how do you simplify processes so that 
customers are better served; and what I have found in that 
experience is when you simplify that process you not only make 
it better for customers, you make it better for the people 
doing the work.
    You create opportunities for people to spend their time 
doing things that are more in line with their performance 
versus fixing mistakes in a process. So, there is a set of 
things there.
    I have also spent a lot of time within McKinsey around 
people, personal leadership and personal development. I had 
been involved in efforts around recruiting, how do we bring 
great talent into the firm, how do we take people at the 
beginning of their careers and help them build the skills to be 
successful, how do we instill within them a process of thinking 
systematically about issues, of being able to break down a 
problem and look at the facts, and follow up to make sure 
things were being done.
    I have worked on training. I have worked on career 
development. And so, that is the content of the work.
    I think there is another element around the way that I have 
worked as a consultant that would be particularly helpful in 
the role of Deputy Director for Management at OMB, if I have 
the honor of being confirmed.
    At McKinsey we often had a small team of McKinsey folks 
coming into an organization trying to make change happen at a 
much larger scale. To me that is analogous to what OMB is 
trying to do in working with the agencies. To do that you have 
to find a way to tap into the expertise that exists in the 
client organization as the way of OMB has to tap into the 
expertise of agencies.
    You have to listen to stakeholders. You have to learn about 
different perspectives, be open to having input and have a 
process of going back so they understand what you have done 
with that input and the decisions that you have made, and you 
have to find a way to get people to own the solutions and your 
recommendations because a small team of McKinsey people, 
without the commitment of our clients, cannot make change 
happen.
    And when we think about what we are trying to accomplish, 
when I think about what I was trying to accomplish at McKinsey, 
it was about making change happen. It was about making change 
stick.
    And so, those topical areas and that ability to leverage a 
small team to create change on a larger scale are experiences 
that I think are particularly relevant for the role of Deputy 
Director for Management.
    Chairman Carper. Good. When you and I met, we talked about 
leverage; and I mentioned that one of the things that Dr. 
Coburn and I did when we were leading a Subcommittee of this 
Committee called Federal Financial Management (FFM), we sought 
to leverage the effectiveness of a small Senate Subcommittee. 
To get better results for less money has really been our focus 
for a long time.
    And, we did that by working with OMB. We did that by 
working with GAO, we did that by working with the Inspectors 
General (IGs), by working with the General Services 
Administration, working with a number of groups in the private 
sector.
    And, we did that I think to some success and now we get to 
lead the full Committee, and we are still attempting to 
leverage the effectiveness of the full Committee with the help 
of all the members, Democrat and Republican, and all our staff. 
And, these partnerships are just extremely important.
    One of the things that we have going for us who have been 
here for a few years, we have relationships with our colleagues 
and also with folks in OMB and GAO. I met yesterday Gene 
Dodaro, who is Comptroller General, and with a number of the 
IGs. Dr. Coburn really shepherds and follows the IGs. We are 
trying to make sure we have IGs at all the right spots.
    One of the problems we face right now is, as I said to you 
before, is I call it executive branch Swiss cheese. And we have 
so many senior positions that are vacant and yours is important 
one to fill. We are anxious to get it filled.
    Talk to us about in terms of leverage about how you plan to 
develop some of the relationships. When I met with Gene Dodaro 
yesterday, I said we have a new woman coming in over as Deputy 
for Management over at OMB, and he is anxious to meet with you 
and begin to partner with you. How do you plan to reach out to 
develop and cultivate the kind of relationships that will 
enable you in the next 3 years and 3 months, hopefully, to be 
especially effective?
    Ms. Cobert. Sure. If confirmed as Deputy Director for 
Management, I think establishing those relationships, 
establishing that open dialogue is a very important part of 
this role and what it will take to be successful and to have 
impact.
    I know that everyone in those roles shares the same 
commitment about trying to make sure that the Federal 
Government is being effective, is being efficient, is not 
spending money, is trying to reduce waste, fraud, and abuse. 
So, we come with the same goals.
    I think there is a very important dialogue to be had and I 
would want to delve deeper into those things. I also want to be 
able to take advantage of what they have learned and the 
reviews that they have undertaken over time, not only just 
address a set of specific issues but to understand and work 
with them and think about what are the underlying root causes 
that are creating some of these issues. How do we tackle those 
that, when we solve one problem, we do not see it occur in 
another place.
    So, those relationships with GAO, with the Inspectors 
General would be an important element for me to take on, if 
confirmed in this position.
    Chairman Carper. OK. One of the areas that I said earlier 
that Dr. Coburn and I have focused on is improper payments. We 
like to say where you cannot measure, you cannot manage. You 
probably said that a few times in your life.
    The folks at the Department of Homeland Security have made 
progress as measured against some of the metrics set up by GAO. 
They have actually made reasonably good progress. They are in a 
position auditable now, have not been audited yet, have not at 
least passed an unqualified audit. But we still have problems 
at the Department of Defense (DOD).
    The last Secretary, Leon Panetta, when he was literally 
going through his confirmation hearings, just like you, one of 
the things we talked about is, how to get Department of Defense 
not just off the high risk list for not having auditable 
financials, but how do you do so in a way that actually enables 
us to save some money, provide for the needs of our warfighters 
and save some money for the taxpayers?
    I have had the same conversation with Chuck Hagel, and they 
are still years away from being able to get an unqualified 
audit. And, I would just urge you to reach out, maybe to 
Secretary Chuck Hagel if you have a chance, but also the Deputy 
and just to reiterate, as we have, how important it is that 
they be able to meet this requirement under the law. And, if 
you have any comments on how you might do that, I would love to 
hear it. They probably do not know who you are from Adam. I 
hope they will soon.
    Ms. Cobert. I do not have comments on the specifics, but I 
share your belief that having accurate, reliable financial 
information is absolutely a vital starting point. You need to 
have that information to understand operations, to understand 
where money is being spent, and to be the foundation for 
important management decisionmaking processes.
    So, I would want to understand what could be done. I would 
want to understand what could I do in my role, if confirmed as 
Deputy Director for Management, to help move that important 
process forward.
    Chairman Carper. Good. Well, our role is to do oversight 
and we focus on it big time and we will continue to do this. 
Sometimes we think the expectation is these folks know we are 
going to have them before this Committee and we are going to be 
asking these questions, why have you not made more progress.
    So, we will be playing our role, and we want to play it, 
whether it is good cop, bad cop. But we have got to make more 
progress here. Thank you.
    Dr. Coburn please.
    Senator Coburn. Thank you again for being here.
    One of the difficulties we have as Members of Congress, 
especially if you want to do oversight, is getting 
responsiveness out of the Administration. I have over 100 
letters outstanding that have not been answered or recognized 
by agencies, and I believe you and I have had a good 
conversation.
    Will you affirm to the Committee that you will be 
responsive in terms of our letters and inquiries?
    Ms. Cobert. I would absolutely affirm to the Committee that 
I would be responsive. I know Director Burwell has made it a 
very important priority for the overall team at the Office of 
Management and Budget to ensure that there is an effective 
dialogue that sets the appropriate level of responsiveness, and 
I share that commitment with her and the rest of the leadership 
team at the Office of Management and Budget.
    Senator Coburn. And the other thing, and Senator Carper 
touched on this, we have done a lot of things through the years 
to try to get better. We have the IG Act. We have the 
Government Accountability Office. We have the Congressional 
Research Service (CRS).
    And when you look, one of the problems is most of the 
agencies do not pay any attention to their reports because of 
all the open recommendations that we have year after year after 
year, we have all these things on the GAO high risk list and 
they do not get addressed. And, you and I talked about really 
having somebody on your staff that has knowledge of all the 
recommendations that the IG has made by agency and the GAO has 
made by agency and how does that fit into the overall 
management change or process change there.
    And so, I was excited to hear that you concurred that is 
important information, maybe not to follow every one of those 
but at least to have the input of here is an opinion that the 
agency is not addressing and then measure whether or not that 
is effective.
    Would you agree with that?
    Ms. Cobert. I do. As we discussed, understanding the GAO 
reports, understanding their findings, understanding what 
actions are underway, understanding how OMB can interact most 
effectively with that process is something I believe is an 
important input as we set priorities for the management agenda, 
as we understand what areas to focus on.
    So, getting that level of understanding would be an 
important priority for me, if confirmed.
    Senator Coburn. We discussed, and I know you know this with 
your experience, but we have a bill that is a bipartisan bill 
called Audit the Pentagon Act; and it has got a hammer in it.
    The Constitution says that you have to give an account for 
what you spend, and unfortunately the Pentagon cannot. They 
spend half $1 trillion a year and they cannot account for where 
they spent the money.
    And, the hammer in that is we take the payment function out 
of the Defense Department and put it at Treasury where all the 
rest of the payment is, and we have not gotten a lot of support 
from that from our members because the Pentagon is fighting 
that so hard.
    But the fact is the reason why we are in trouble in our 
Defense Department is because we have no significant, good 
metrics with which to manage the decisions we make.
    And so, one step on that is auditing the Pentagon and 
making sure they can pass an audit, not a qualified opinion, 
but an unqualified opinion to where they can actually meet the 
expectations of what the Constitution literally says. Now, 
every other agency can do that except the Pentagon. So, I think 
it is pretty important.
    The Department of Homeland Security has 455 open, 
outstanding GAO recommendations that they have not addressed. 
That is just the Department of Homeland Security.
    So, we have thousands. We spent the money to research it. 
We spend the money to look at it, but we have thousands of 
recommendations all across the government agencies that are not 
being addressed.
    And so, my hope would be is that you really actually spend 
some personal time looking at how much of this is accurate. We 
have found on this Committee that GAO is not right 100 percent 
of the time but they certainly are right in raising problems, 
and their solutions may not be the best because they do not 
have all the insight.
    But I just think it is important to me and I think Senator 
Carper and this Committee that somebody inside OMB is actually 
paying attention. We are spending all this money on GAO and IGs 
and it does not look like we are getting progress in terms of 
moving on the recommendation, and especially at the Department 
of Homeland Security.
    So, I would take a little issue with Tom on how much they 
have improved. I think they have a long ways to go with 455 
open recommendations. But again, I appreciate your being here; 
and as I said in my opening statement, you have my full 
support. I will help you get through the Senate and I will help 
you do whatever you need to do over there to help us as 
Americans be more successful and better stewards of the 
taxpayers money.
    Thank you.
    Ms. Cobert. Thank you.
    Chairman Carper. Before we turn to Senator Johnson, let me 
just go back to something that Dr. Coburn said.
    We have too many departments where we have no confirmed 
Inspector Generals. A big one is the Department of Homeland 
Security, and it is a huge problem. We have been in this 
situtation over 2 years. For about a year one of our colleagues 
held up a nominee. Then, for basically 2 years we have had 
someone in an acting capacity. That person is under 
investigation by a Subcommittee of this Committee, and 
meanwhile the Administration has been unable to vet somebody 
and get somebody to us as a nominee. Not a good situation.
    And, I would ask you that you make it at early priority 
getting the Administration to get somebody nominated to be the 
Inspector General for the Department of Homeland Security.
    Some of these 400 recommendations that Tom talked about, 
the IG should be working on some of these ads are well.
    Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    Ms. Cobert, I would like to join Senator Carper and Senator 
Coburn in just thanking you and your family for your 
willingness to serve. I mean, this is just an absolutely 
fascinating nomination. I commend whoever found you.
    Senator Coburn. Sylvia.
    Senator Johnson. Sylvia. I mean, that is fabulous. We are 
looking forward to our meeting tomorrow.
    Ms. Cobert. Great.
    Senator Johnson. Your skill set is exactly, I think, what 
this government needs across the board and I would like to see 
hundreds of people with your background.
    You listed the number of different areas that you have 
consulted on. I am interested in just having you describe what 
your process was when you go into a business, and you talked 
about a small team trying to make large-scale impact. I mean, 
there is nothing larger scale than this as a financial entity 
and the task is really overwhelming. So, can you just tell me 
what your process was and what your process will be?
    Ms. Cobert. Sure. Thank you for the question and thank you 
for your kind words.
    Let me try and describe some principles about how I have 
tried to work at McKinsey and maybe illustrate that with one 
example that might be helpful here. At McKinsey we have a 
number of principles that underlie our approach to any problem.
    One is being clear what is the objective we are trying to 
maneuver against, what kind of performance are we trying to 
deliver for customers, for the business, for the people who are 
working in that business.
    So, we start with a clear objective because that is the 
objective that is going to drive our recommendations. There is 
then a process of looking at data and formulating hypotheses 
it. What are some alternatives for how things can work and what 
are the facts going to show us.
    We then spend a lot of time thinking about data. That data 
can take the form of understanding financial performance. It 
can be understanding feedback from customers. It can be looking 
at changes going on in the economy. So, you can understand what 
the actions might be involved and what the costs and benefits 
might be.
    And finally, there is a process of testing alternatives, 
building recommendations, and importantly, once you have a set 
of recommendations, developing a set of metrics where you are 
going to measure performance.
    You are going to be dogged about coming back again and 
again to say what did we do, did it work, is it delivering the 
way we thought it would, and if not, what are we going to do to 
change things.
    I can think about an example of a telecommunications 
company I worked for which was plagued with problems of when 
they were signing individuals up phones were coming back, 
customers were not satisfied, peoples would then drop the 
service.
    So, they had gone to all of this trouble to bring these 
customers on board but they got them on board and then they 
left again because the process of getting them engaged did not 
work. It involved lots of different parts of the company.
    You had to find out what was happening at the frontline at 
the store when people walked in. You had to find out why things 
were sometimes getting delayed in getting their service turned 
on. You had to find out whether you had actually put them in 
the right contract in the first place, one that really fit 
their needs, because if they ended up in a program that did not 
work, they then were either paying too much or not getting the 
services they really wanted.
    We did that through a process of working with individuals 
from all of those different parts of the organization. We 
looked. We had people from the finance function. We had people 
from the frontline. We had people from the call centers who are 
getting the calls from the angry customers. We had people from 
the logistics group who were actually supplying the phones back 
and forth.
    And, what we tried to do in that case was get a picture of 
the process end to end from the view of the consumer--what were 
the customers seeing, what was working for them, and how do we 
start to measure it in a way that took it from the customer's 
perspective?
    Each of those individual groups were trying to do their job 
well. Someone was counting whether they were putting the data 
in it accurately but they did not know what happened when the 
data left their shop.
    So, what we did there is say how can we bring this 
together, how could we collectively redesign a process, and in 
this case how did we put in new metrics, metrics that were not 
just about getting in people's hands but having those people 30 
days in, 60 days in still be customers and be highly satisfied 
customers.
    So, it is that mix of the end product which was keeping 
customers, getting them happy, the data from the different 
places, getting people to own that, and then having something 
to measure at the and to see if he were being successful.
    Senator Johnson. I mean, not to put words in your mouth but 
to me it sounds like you are describing a basic strategic 
planning process. I mean, would you go in there and did you 
have a basic strategic planning process that you would 
implement kind of the first thing out of the box?
    Ms. Cobert. There is a strategic planning process which you 
would then translate into operational activities, which you 
would translate into a budget. So, it is that whole cycle, and 
then into performance metrics and evaluation.
    Senator Johnson. It is interesting. You said you first 
started with objectives. I guess from my standpoint, that would 
be the second step. I mean, really is it not the first step in 
the strategic planning process trying to ascertain reality and 
really getting the facts on the ground? I do not want to 
quibble with you but I think it is somewhat important in terms 
of my next question.
    Ms. Cobert. Sure. I think both of those go together so it 
has to be iterative. When we think about objectives, they are 
pretty broad objectives as opposed to the tactical objectives. 
So, they do relate to the context.
    And again, I think it is important to be iterative. As you 
learn more about the context, you can go back and check those 
objectives. So, this process of sort of learning and feedback 
is very much embedded.
    So, we find sometimes it is helpful to start with where do 
we think we want to go, how do we adjust that, and then how do 
we refine it before you make a firm commitment.
    So, the two go together.
    Senator Johnson. OK. From my standpoint, we are dealing 
with the reason I came here, and by the way I have a pretty 
similar business background from the standpoint of the number 
of years in the private sector and then all of a sudden being 
here.
    We are dealing with the fiscal situation here. We are 
dealing with financial problems. It requires numbers. If there 
is one thing that has driven me nuts as an accountant is the 
inability to come up with a common set of numbers and being 
able to just get information.
    So, I guess, that is my next question. Do you basically 
agree with that assessment? Is that going to be a primary goal 
of yours is trying to describe our problems numerically?
    Ms. Cobert. I do think having reliable financial data, as I 
said earlier, is a critical priority. You need reliable data. 
And I think there have been a number of efforts underway to try 
and make that data more available, more visible to the public.
    I have also found that as you use data more, as you use it 
to make decisions, the individuals who are generating that data 
begin to even more recognize its importance, depend on it for 
reliability. If people are going to use it to assess their 
performance, if someone is going to hold them accountable, 
their interest in having accurate data to start with gets much 
higher.
    So, I believe there is a lot of value there. I know that 
there has been efforts on that and I know that there is more to 
do.
    Senator Johnson. OK. Again, I am just looking forward to 
working with you. Just my final comment is, if you are going to 
solve a problem, you first have to admit you have one, and we 
do not have enough people in this town truly admitting the 
depth of our problem; and second, you have to accurately 
describe it.
    You have to define it; and from my standpoint, we are not 
dealing with just a 10-year budget window problem. We really 
are dealing with a 30-year demographic problem. We have made 
all of these promises to the baby boom generation. We did not 
make adequate provision to pay for them.
    So, I have been working with the White House trying to 
define this over 30 years. What are our long-term debt and 
deficit issues, and I am hoping that you will work with us to 
come to common understanding in terms of what the depth of that 
problem is and then start trying to format the solutions.
    I keep calling it the solution menu, just putting in 
options so we are actually dealing with real information, not 
demagoguery, but describing this with real information. That is 
certainly what I am looking forward. With your background I 
think you are in a perfect position to work with us to do that.
    So, thank you.
    Ms. Cobert. Thank you.
    Chairman Carper. Thank you, Senator Johnson.
    Now, we will hear from Senator Chiesa.
    And I would just say to your mom from New Jersey out in the 
audience, Ms. Cobert, you have two good senators and we are 
going to lose this one maybe by the end of this month but he 
has taken and filled the shoes of Frank Lautenberg very well 
and he has been a joy for us to serve with. So, I think you can 
be proud of the representation you have here.

              OPENING STATEMENT OF SENATOR CHIESA

    Senator Chiesa. Thank you, Mr. Chairman, and welcome 
especially to my fellow New Jerseyan, Mrs. Cobert. Nice to have 
you here today.
    I have not had a chance to meet with you before the 
hearing. You answer your question with a precise analytical 
mind.
    How did you come to the decision to uproot your life and 
take on this enormous responsibility on the other side of the 
country?
    Ms. Cobert. When presented with this opportunity, it was 
actually a very clear decision in my mind. My parents raised me 
with a set of values that said community service and public 
service is valuable and important.
    My father was a veteran. My parents have both been active 
volunteers in Montclair as long as I can remember. I have also 
had a great deal of personal involvement in community 
organizations. One of the things I am proudest of over the last 
few years was being the chair of the United Way of the Bay Area 
and the programs we put in place with the private sector, with 
government, with the city of San Francisco, with companies 
large and small, and with many citizens.
    Last summer, for example, we helped to organize a joint 
effort between the city of San Francisco and businesses across 
the city to create 6,000 jobs for high school youth, setting 
them on a path to employment and economic prosperity over time.
    So, it is those two things and also, frankly, this 
Administration's commitment to thinking about management, how 
can we build management within government for the 21st Century.
    In working with organizations of all types, I have seen the 
opportunities that exist when you really try and tackle that, 
when you think about how you can deploy technology, when you 
think about the skills you need in the workforce.
    So, it was the combination of the values with which I was 
raised, my own experience and the awards I have gotten from 
public service, and the opportunity to work with this 
Administration, with Members of Congress to try and really make 
a difference today when we really need, as the Senators have 
said, more effective management in government.
    Senator Chiesa. Thank you. You talked in one of your 
answers about identifying waste, fraud, and abuse. Honestly, it 
drives the people crazy when they hear about whatever the story 
may be, many of them sensationalize.
    I think it is hard, at least I do not know the precise 
figure that we attach to the losses that are attributable to 
those things. In your own mind, have you done any preliminary 
assessment as to, of those three: waste, fraud, abuse, the 
thing most troubling to you in the Federal Government right 
now?
    Ms. Cobert. The issue of waste, fraud, and abuse 
collectively is a big issue; and if confirmed to take on this 
role, it is getting to the specifics of that is important.
    I know that there are many efforts underway, through 
efforts working with this Committee, to move forward. I think 
there are clear opportunities. For example, how is the 
government effectively using data to understand those issues 
even before they occur, doing those in a way that respects 
obviously the importance of privacy and information sharing. 
But there are opportunities to do that.
    I have seen in the private sector, for example, when you 
can use information technology and data to understand where 
there are patterns which you then can go look at.
    I know that some of the efforts like the do-not-pay list 
are a way of trying to get to those issues before they occur. 
It is always easier to tackle those things before the money 
goes out than trying to recover it later.
    So, I think there are a number of opportunities there; and 
if confirmed, I would want to learn more about what is the best 
and highest impact place to move forward.
    Senator Chiesa. Can you talk a little bit about, in your 
private sector experience, the things and tools that you used 
at McKinsey to address--because I am sure when you go into 
these problems, you talked about that telecommunications 
customer-service operational issue that you dealt with.
    You must also get called in where someone is just throwing 
their hands up in the air, we cannot understand where all of 
our money is going.
    Is there an internal investigations focus? Is there an 
accounting focus? How did you go about addressing those issues 
at McKinsey?
    Ms. Cobert. Sure. When we came in, as McKinsey we are 
management consultants, not auditors. So in general, our focus 
was on what is the most effective way that clients are spending 
their money and is it accomplishing the goals that they set 
out.
    In doing that, it typically involved working with 
individuals from across the organization to understand the 
specifics of what was being spent and to what end.
    Accounting records are a place to start, integrating those 
with understanding of who those payments were. We used a lot of 
analytical tools around looking at patterns and payments. Lots 
of people at McKinsey, including myself, looked at how do you 
use statistics to say where are the patterns, where is the 
deviation from the norm, what might be causing that.
    And again, I think the core thing is to keep asking why. It 
is a series of questions. When you see a pattern, what does it 
indicate?
    The other piece in the network that we typically try to do 
was to say let us tackle the biggest problems first. So, let us 
try and identify the areas that there is the biggest 
opportunity for impact both because they represent the most 
dollars and they represent something that is catchable.
    So, trying to set priorities was another important way 
trying to get at those issues. You are going after places where 
there is the biggest impact in your actions.
    Senator Chiesa. Great. Well, you have an extraordinary 
background. It is a big job to take on. You and your family are 
to be thanked for the commitment that you are making and you 
will have my support.
    So, thank you.
    Ms. Cobert. Thank you.
    Senator Chiesa. Thank you, Mr. Chairman.
    Chairman Carper. You bet. Thank you very much.
    I think I mentioned when we met, we talked a little bit 
about the General Services Administration; and for reasons I 
cannot really explain, I have historically kind of overlooked 
the importance of their role in helping us get to better 
results for less money, trying to create almost a change of 
culture here in the Federal Government that focuses on that.
    But Administrator Dan Tangherlini was here, my gosh, a 
month or so ago, for a hearing on strategic sourcing, and my 
guess is you have dealt with that in the past to some 
considerable extent to see how companies in the private sector 
actually save money by using strategic sourcing.
    Would you talk with us specifically about that subject and 
whether what you worked on in the private sector might be 
transferable to the public sector and how you might build on 
that experience?
    Ms. Cobert. I had considerable experience working with a 
range of companies to improve their sourcing efforts, to think 
about strategic sourcings; and I certainly look forward, if 
confirmed, to working with the GSA on this issue. I think it 
presents a real opportunity for the Federal Government.
    In creating those efforts, I think there has been a couple 
of things in mind. One is how do you bring disparate parts of 
an organization together to leverage their buying power. It is 
important in that process to understand where their needs are 
common so you can actually take advantage of things and where 
there might be places that are unique. So, you can leverage 
your buying power.
    Another important element that we found, that I found in 
strategic sourcing is making sure you are buying the right 
things, not just that you are getting the best price but you 
are actually buying the right things for the right price.
    I can think of one of the clients that I served in the 
financial services where the folks at the frontline needed very 
high-powered, very light, very robust laptops because they were 
doing a lot of work in the field that involved a lot of 
graphics. They needed powerful machines.
    So that became the standard of what everybody was using 
across the company; but when you looked at what the needs were, 
there were other people who needed something that was much 
simpler.
    So, the way to save money and get people what they need was 
to actually not buy them an expensive laptop for a low price 
but to actually buy them the laptop that had what they needed 
but not more.
    So, there is both taking advantage of leveraging buying 
power and making sure you are buying smart, and in bringing 
people along in that process so they can see the benefits to 
themselves and their organization to making it tangible, in 
this case, to the owners of these business units.
    The other elements that I thought were really important was 
actually having a talented procurement group in the case of 
here the acquisition workforce who understands the commodities 
that they are buying. They understand the needs of the 
different users so they can be an effective partner in thinking 
about how to buy cost-effectively, how to buy what you need, 
how to manage demand.
    So, I think that it is another elements and a challenge 
here as well as, again, in the Federal context thinking about 
how do you engage small business in that effort and take 
advantage of the great services and products that can be 
procured through many small businesses.
    Chairman Carper. One of the things that Dr. Coburn has 
focused on a whole lot is duplication and trying to eliminate 
duplication where we have it. One of the areas in terms of the 
IT world where we have duplication is, in some cases, the data 
centers.
    In some cases, we have the IT projects where we spend a lot 
of money and just do not get the kind of result that we need.
    If you will, talk to us about, what we can do on the data 
center side in order to reduce all the ones that we have, to be 
able to get better results for less money in this regard too, 
because there is a lot of money to be saved. I think we saved 
some money and we put a big effort, put a spotlight on this, 
but talk to us about that.
    Ms. Cobert. I know that getting greater efficiency and 
effectiveness out of IT has been a priority for this 
Administration. I know that Steve VanRoekel in his role as 
Chief Information Officer has made this a very important 
priority and that I understand the Administration is making 
progress.
    But in the world of technology there is always more to do 
and there is always something new. I come from the Bay Area 
where the world of technology is sort of exploding around us 
with lots of opportunities to continue to be more effective and 
efficient.
    So, I understand that there have been efforts underway on 
data centers and I know that there is more work to be done. I 
think processes that have been put in place as best I can 
understand them as a citizen around PortfolioStat, around 
TechStat, create the kind of discipline around measuring 
performance, looking at how you are doing and figuring out 
where there are savings.
    And I think, while it is important everywhere, it is 
particularly important around IT as the capabilities of IT 
continue to evolve a mindset that says we have now gotten 
improvement but what is the next step. This continuous 
improvement mindset is particularly critical.
    And also, it is critical to think about this as a 
responsibility not just of the IT department but of the users. 
The IT department really needs to have that dialogue so that 
you are, in fact, getting the services that you need, not more, 
not less.
    What are the requirements that the businesses or the 
mission side is asking for and what is the best way to deliver 
them, because often times as I have seen in the private sector 
experience, and I can think of one case in this issue, for the 
folks on the business side it was a relationship management 
system and they wanted a number of elements in it that to them 
seemed logical and they started to build the system to do that.
    When they actually had a discussion with the IT folks and 
said, look, if we track this data a slightly different way it 
will cost a lot less, they were able to say, OK, let us change 
what we are specifying.
    So, it is a matter about being disciplined about 
specifications and having a dialogue that says how can we make 
this better, how can we have these metrics in place.
    And so, looking at how to continue the efforts around data 
centers, and around PortfolioStat, TechStat I think that would 
be an area that I absolutely would want to continue going 
forward. There is a lot of opportunity there.
    Chairman Carper. How are you going to find time in your 
life to do all of these things plus still try to be a daughter, 
a wife, a mom? There are only 24 hours in a day. How do you do 
this?
    Ms. Cobert. Setting priorities is one thing. I also have 
had the privilege of getting to know some of the staff at OMB 
in this process and it is a terrific set of people.
    They are hard-working. They are dedicated. They believe 
quite strongly in the mission that they have taken on around 
management effectiveness; and so working with them, working 
with agencies and figuring out how to take advantage of them 
and work with them together will be really important.
    Chairman Carper. Good. Well, when Sylvia was nominated by 
the President, I reached out to Erskine Bowles with whom she 
had worked in the Clinton White House and who just said 
extraordinary things about her and her abilities and all; and 
when Sylvia was going through the process, Dr. Coburn and I 
were very impressed with her and wanted to get her confirmed 
and confirmed quickly.
    And, I pledge to her that we would do whatever we could to 
move her nominees that the President would submit to us for her 
leadership team at OMB. I think you are the last major piece, 
your position would be the last major piece.
    When you look at the team that you will lead, there may be 
some other folks that we need to confirm. I do not think so but 
there may be. I just do not know off the top of my head. But in 
terms of your direct reports, do you have any idea like how 
strong they are, the positions that are filled, are going to 
need to be filled?
    Ms. Cobert. I know that there are some open positions 
still, the office of Federal Financial Management position.
    Chairman Carper. Yes.
    Ms. Cobert [continuing]. We have an interim, for example.
    So, I would want to work closely with Director Burwell, 
with Deputy Director Deese, with the folks that are in those 
roles now to understand how we can bring in people who have 
great talent, who have dedication, who have a mix of 
experiences and who have a commitment to working 
collaboratively with each other, with this Committee, with the 
agencies to make progress on our agenda.
    Chairman Carper. All right. I have said this before. I 
think it bears repeating. The Administration needs to nominate 
good people for positions that require confirmation.
    We have wonderful people that are willing to step up and 
serve in an acting capacity. We are grateful for that. But the 
Comptroller General recently said to me, in terms of the 
effectiveness, he said it makes all the difference in the world 
if you have Senate-confirmed rather than in an acting 
positions.
    My message to you back to the Administration and I have 
used every avenue I can think of is they need to send us good 
names. They need to be vetted properly. We have a 
responsibility to vet and then to the good, confirm them; if 
not, turn them down. But treat them with respect. But we have 
to fill these positions.
    The last thing the last question I would have is this. 
Sometimes we look at people's academic records. We look at 
their work experience and all of that but we do not talk about 
the values that they bring to the job and you talked a little 
bit about your mom and dad.
    Just in closing, tell us a thing or two that you learned 
from your mom and dad that sort of prepares you for this, maybe 
a thing or two that you learned in your role as a spouse to 
your husband and maybe a thing or two you learned as a mom to 
these two kids that you have raised, that you both have raised, 
would you just close with that?
    Ms. Cobert. Sure. There are a number of things that I have 
learned from my parents, from my husband, from my children that 
guide the way I approach frankly whatever task I take on.
    The first is about doing the right thing, that it starts 
with doing the right thing and a sense of values and purpose. 
Second, about hard work. If you are going to take something on, 
you have to do it well. And so really delivering against the 
best of one's capabilities.
    Third, and I learned this actually, when I was in high 
school I worked at the textile manufacturing company where my 
dad worked and so I actually got to see him as a manager 
firsthand which is something you did not get to see as a kid, 
and I saw him being an incredibly thoughtful listener to the 
folks that were working for him and really thinking about how 
he could make them better. He might have had an answer but he 
wanted them to discover it.
    So, this process of listening and collaborating and 
learning from others is something that is really important.
    I also through all of them have actually learned that 
really the important objective function is the goal, how we 
build support to a goal. It is not about taking credit. It is 
not about who gets it done. It is about whether it gets done. 
And if I can contribute to that, that is great. So, it is about 
this collective leadership and partnership.
    And finally, it is about taking responsibility for the 
things that you are responsible for. If you say you are going 
to do something, you live up to those commitments and you do 
it. And probably, and this one may be from my husband, but 
certainly from my children. Patience.
    I still work hard on that one. I am not sure I fully 
internalize that as much but just coming to things with a sense 
of patience and also assuming goodwill. That the individuals, 
as you said earlier, who are coming to work everyday are coming 
to work trying to do a good job and you start with that basic 
belief and your role is to figure out how you can help 
facilitate that.
    So, those are some of the values that I would bring to the 
role of Deputy Director, if confirmed.
    Chairman Carper. Those are great values. We would all do 
well to embrace them.
    I have been joined by Senator Ayotte. She is just pulling 
into her chair and pulling up to the dais. Our nominee, Beth 
Cobert, is just wrapping up but you are recognized if you would 
like to make a statement or to ask a question feel free if you 
like and I know you just sat down.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman.
    Chairman Carper. None of the rest of us are very impressed 
with her so maybe.
    Senator Ayotte. No. I appreciate it. I am impressed with 
her qualifications, and I believe already you have been asked 
the questions about the data center consolidation and that was 
at the top of my list and obviously looking back at what OMB 
had said about it.
    So, I appreciate that you are going to focus on this so 
that we can really get this right and save money and also make 
sure that we are achieving our goals.
    As the Deputy Director for Management at OMB, you will have 
obviously an opportunity to lead efforts to prioritize and 
implement governmentwide efficiency improvements.
    Can you identify some examples of your experience in the 
private sector that have led to improved efficiency and what 
you think you could bring in terms of this position to improve 
efficiency within the Federal Government because in this 
position I think your private sector experience is going to be 
able to help us save money in so many ways where we know there 
are tremendous inefficiencies right now existing in the 
government?
    Ms. Cobert. Sure. I can think about examples from a number 
of different disciplines that are relevant to the role of 
Deputy Director for Management where I had hoped to bring that 
experience. Let me highlight a couple of examples for you.
    I have done some work with a large business services firm 
looking at their IT expenditures; and in that place, we sort of 
framed it as a function of looking at what we called the 
factory, how did they get their basic infrastructure working 
well to be reliable, to be efficient, and to meet their 
business needs as their business was growing.
    What could they do themselves, what were places where they 
too could consolidate their data centers or look to cloud-based 
solutions as an alternative to building systems themselves.
    So, that is something in the IT world. I have done some 
work with a number of clients on purchase services and 
procurement, making sure that they were leveraging the buying 
power in this case of a broad-based enterprise across the 
United States that had different business units purchasing 
differently.
    So, how could they leverage that buying power, how could 
they standardize things by having uniform cell phone contracts 
that actually recognize that they were sending lots of 
individuals overseas, and so you could actually negotiate 
different kinds of rates for that.
    How could they make sure that they were buying the right 
things. It was a company in financial services and getting 
accurate and timely market data was important but it was really 
important for people who were sitting on trading desks to have 
daily, real time data. It was not so important for people in 
different roles; and so if they got data that was delayed by a 
few hours, it cost 50 percent less.
    So, you are thinking about what you are buying, how you are 
leveraging buying power, how you are doing the right thing.
    I did work with an insurance client looking at their entire 
customer service operations and thinking about from the 
consumers perspective how could they do a better job of filling 
requests to change policies.
    As we looked at that from the customer's perspective, one 
of the things that we saw that the customers actually wanted to 
do it themselves. So, in this case it was how to take a process 
that, instead of having to talk to somebody on the phone, you 
could actually go on their Web site and get that changed done, 
get it confirmed.
    It was much more efficient for the company. They did not 
have to have somebody taking it down. It was much more accurate 
because you are not getting miscommunications, and it enabled 
those resources that instead of spending time doing things like 
processing address changes or extending terms of policies those 
individuals could have dialogues with customers about what were 
the additional products and services that they needed.
    So, they were able, in fact, to transform that service 
staff into a sales staff and get both lower costs and better 
revenue from that effort. Those were a couple of examples.
    Senator Ayotte. Do you think you will be able to translate 
that now going to work for OMB and, just having been around 
here only for a couple of years--I got elected in 2010--I worry 
that there are so many GAO reports that sort of sit on a shelf 
of very good ideas about how we can implement efficiency, how 
we can find savings, and I know both the Chairman and the 
Ranking Member in particular have focused on wanting to get 
those things done.
    And as you go into the sort of government setting, how do 
you see you translating that and making things happen, because 
I think that is the great frustration that all of us share and 
the American people often as we see roadmaps of good people who 
have looked at it, whether it is GAO or others who have made 
important recommendations and they never get implemented?
    Ms. Cobert. So, I think there is a lot to learn, as I said 
before, from the reports from GAO, understanding what is there, 
understanding the root causes of the problems.
    And, I do believe there is an opportunity to apply these 
lessons from the private sector. I think it takes real 
discipline. I think it takes being consistent and having clear 
goals, holding people responsible, and being consistent and 
coming back.
    If things are not making progress, why? Why not? What is 
getting in the way and how do you help remove those roadblocks 
and how do you help build that commitment, not just at OMB but 
in the agencies to make these changes so that they can deliver 
better government services and do so with greater efficiency?
    So, that disciplined performance management is one way to 
get there, being clear about priorities, and understanding what 
are the constraints and trying to help work with agencies and 
work with Congress to get those removed.
    Senator Ayotte. Thank you. I appreciate your willingness to 
serve in this position, and let me just say that you will find 
many partners here who want to help you with this and I hope 
that you will use this Committee as a resource to help you 
implement efficiency and savings and the things that you would 
like to do to make a better service within OMB and within the 
overall government that we can help you with that.
    So, thank you.
    Ms. Cobert. Thank you. I know this Committee shares that 
commitment and I look forward to working with this Committee 
and their staff on pushing this agenda forward.
    Senator Ayotte. Great. Thank you.
    Chairman Carper. Senator, thank you so much for joining us 
with everything else you have going on.
    Thank you.
    We are going to wrap it up here.
    Dr. Coburn, any parting comments? OK.
    I will just go back to reiterate a couple of things if I 
could. You mentioned when I asked you the values that you have 
inherited or brought from your mom in your role as a daughter 
and you said at the end one of the things that you learned from 
being a spouse and being a mom is patience, the importance of 
patience. That is a great one. I always heard all of my life 
patience is a virtue, and I believe that.
    Conveying a sense of urgency is also a virtue, and I think 
you have probably spent your life, your life's work conveying a 
sense of urgency in the work you have done for McKinsey and 
Company. And I would just say in this role you will need it 
more than ever, being able to convey that sense of urgency.
    And, there is no way you could do all of this by yourself 
or even with your team that you can do it by yourself. We need 
each other pulling in the same direction and we need our 
friends at GAO. We need those IGs. We need those IG positions 
filled. We need the kind of close working relationship with Dan 
Tangherlini and everybody that he leads at GSA, and we need 
folks outside of the government, folks outside the government 
to work with us.
    And if we get all of us pulling in the same direction, we 
can get a whole lot done. And, we have gotten a fair amount 
done even when we are not all pulling in the same direction. 
So, I would just say that in closing.
    Again, our thanks to your mom. Mrs. Cobert, again thank you 
so much for making the trip, thanks for riding Amtrak. As an 
old board member of Amtrak, thank you for taking the train. To 
your husband who is up there listening in, looking down 
probably on his daughter and you and your family in absentia 
thank you to him.
    To your husband, to Adam Cioth. That is a great name but 
Adam, thanks for all you do with your life and especially for 
helping raise these two kids and for sharing Beth with all of 
us.
    And for Peter, it was very nice to have met you. I wish you 
well back at Tufts.
    Maybe someday I will get to meet your daughter Talia but we 
wish her well at Northwestern. Ask her not to beat up on my 
Buckeyes too much.
    Any last words?
    Ms. Cobert. I just would like to thank this Committee for 
the time, for their willingness to engage in this dialogue, and 
I look forward to working with you, if confirmed.
    Chairman Carper. All right. Let me say in closing the 
nominee has filed responses to biographical and financial 
questionnaires, answered prehearing questions submitted by the 
Committee and had her financial statements reviewed by the 
Office of Government Ethics.
    Without objection, this information will be made part of 
the hearing record with the exception of the financial data 
which are on file and available for public inspection in the 
Committee offices.
    The hearing record will remain open until noon tomorrow for 
the submission of statements and questions for the record.
    Tom, my staff just told us that the majority leader's 
office is saying that they are not going to entertain 
nominations on the floor, debating and voting on nominations on 
the floor which, it is not something I discussed with him. I 
was not happy to hear that.
    Can you cast a light on that?
    Senator Coburn. I am not aware that there is a statement of 
that, but to me that would be indicative of the whole mindset 
of the problem in Washington today. The entire government is 
not shut down. The Senate is not shut down, and the fact that 
we would not process a nominee that is important and vital to 
establishing what we need at OMB seems to me like you are 
shooting at your own feet.
    Chairman Carper. All right. We have tried for months now by 
unanimous consent to have a chance to go to conference on the 
budget resolution. We have not been very successful yet, and 
maybe we can try that approach here with a little more success.
    Thank you very much. And with that, I bid you all good bye 
and we will look forward to working with you, God willing, in 
the months and years to come.
    We are going to adjourn this hearing and invite our second 
panel to start in the second hearing.
    With that, this hearing is adjourned.
    Thank you.
    Ms. Cobert. Thank you.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]





                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
